APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Court of Criminal Appeals of Texas
Denying Appellee’s Petition for Discretionary
Review (July 22, 2020) ....................................... 1a
Memorandum Opinion of the Court of Appeals
of the Sixth Appellate District of Texas
(January 10, 2020).............................................. 2a
Corrected Findings of Fact and Conclusions of
Law Pertaining to the Sixth District Court’s
Order Granting Defendant’s Amended Motion
to Dismiss on Due Process Grounds
(June 6, 2019) ................................................... 19a
Order of the Sixth District Court of Lamar County,
Texas Granting Defendant’s Amended Motion
to Dismiss on Due Process Grounds
(June 3, 2019) ................................................... 27a
Order of the Court of Appeals of the Sixth
Appellate District of the State of Texas
Denying Motion for Rehearing
(February 19, 2020) .......................................... 28a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
Bell Motion for Rehearing Filed in Court of Appeals
of the Sixth Appellate District of Texas
(February 11, 2020) .......................................... 29a
Bell Amended Motion to Dismiss On Due Process
Grounds Filed in the Sixth District Court,
Lamar County, Texas (February 21, 2019) ..... 39a
Appendix A to Bell Amended Motion, Letter from
Texas Department of Family and Protective
Services (January 26, 2007) ............................. 44a
Indictment
(November 10, 2016) ........................................ 45a

App.1a
ORDER OF THE COURT OF CRIMINAL APPEALS
OF TEXAS DENYING APPELLEE’S
PETITION FOR DISCRETIONARY REVIEW
(JULY 22, 2020)
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
________________________
BELL, BILLY JOHN
COA No. 06-19-00139-CR
Tr. Ct. No. 27013
PD-0239-20
________________________
On this day, the Appellee’s petition for discretionary
review has been refused.
Deana Williamson, Clerk

App.2a
MEMORANDUM OPINION
OF THE COURT OF APPEALS OF THE
SIXTH APPELLATE DISTRICT OF TEXAS
(JANUARY 10, 2020)
IN THE COURT OF APPEALS
SIXTH APPELLATE DISTRICT OF TEXAS
AT TEXARKANA
________________________
THE STATE OF TEXAS,

Appellant,
v.
BILLY JOHN BELL,

Appellee.
________________________
No. 06-19-00139-CR
On Appeal from the 6th District Court
Lamar County, Texas, Trial Court No. 27013
Before: MORRISS, C.J., BURGESS and STEVENS, JJ.
A 2016 indictment charged Billy John Bell with
three counts of aggravated sexual assault of a child
and one count of indecency with a child,1 All the acts
for which Bell was indicted were alleged to have been
1 The indictment also charged Bell with one count of continuous
sexual abuse of a young child. By separate order, the trial court
granted Bell’s motion to quash that portion of the indictment.
The State does not challenge that order in this appeal.

App.3a
perpetrated against C.M.2 in 1999 and 2000. Because
the State failed to preserve Child Protective Services
(CPS) records of an investigation about the allegations
that took place in 2006, which included a recorded
interview of the victim, the trial court dismissed the
indictment because Bell’s right to due process had
been violated.3
On appeal, the State contends that the trial court
erred because Bell did not show that the State acted
in bad faith. We agree, reverse the trial court’s order
dismissing the indictment, and remand for further
proceedings.
I.

Background

In August 2016, Detective Chris Bean with the
Paris Police Department investigated an allegation
that Bell had sexually assaulted C.M.’s son. During
that investigation, C.M. told Detective Bean that Bell
had also sexually assaulted her when she was younger
and that she had reported the matter to the police.
C.M. claimed that she met with CPS about her
2 We refer to the victim, who was a minor at the time of the alleged
offenses, by her initials. See Tex. R. App. P. 9.10.
3 In his amended motion to dismiss, Bell asserted, and the trial
court concluded, that the State’s failure to preserve evidence
violated both his right to due process under the United States
Constitution and his right to due course of law under the Texas
Constitution. See U.S. Const. amends. V, XIV; Tex. Const. art. I,
§§ 10, 19. We have held that the Texas Constitution’s Due Course
of Law Clause provides no greater protection regarding the
State’s loss or destruction of evidence in a criminal prosecution
than the United States Constitution’s Due Process Clause. Jones
v. State, 437 S.W.3d 536, 540 (Tex. App.—Texarkana 2014, pet.
ref’d).

App.4a
allegation of assault shortly after she reported it to the
police. Bean’s investigation also revealed that C.M.
reported the matter to the police in November 2006.
As a result of C.M.’s allegations, Bell was ultimately
charged with aggravated sexual assault of a child and
indecency with a child.
After Bell was indicted, he issued a subpoena to
CPS seeking records about the allegations made by
C.M. in 2006. When CPS could not produce any records
from its 2006-2007 investigation, Bell moved to dismiss
the indictment on due process grounds. Bell argued
that, because the State destroyed exculpatory evidence,
he was denied due process under the United States
and Texas Constitutions.
At the hearing on Bell’s motion, C.M. testified that,
in 2006, she was sixteen years old and lived with her
mother next door to Bell, who was her step-grandfather.
In November 2006, C.M. argued with her mother about
whether C.M. should be left home alone one night.
Because she did not feel safe with Bell next door, C.M.
called the police. C.M. told the police that she did not
feel safe at home alone because she had sexual issues
with Bell. Evidently, an offense report was prepared,
and a referral was made to CPS.
About one week after that incident, C.M. moved
to Dallas to stay with her cousin. C.M. testified that,
while in Dallas, someone from CPS came to her aunt’s
house to ask her about her allegations against Bell.
C.M. said that the CPS representative recorded the
interview, which lasted ten to fifteen minutes. C.M.
maintained that, although the CPS representative
asked her specifically what happened, C.M. did not say
anything. She also explained that her grandmother
had called and told her not to say anything. C.M. also

App.5a
testified that she did not speak to law enforcement after
the CPS interview and that the case was not picked
up or prosecuted by the district or county attorney.
Patrice Savage, a regional attorney for CPS, responded to a subpoena for records involving C.M. or
Bell. She testified that the only records they had were
from 2016. She did not know when the records from
2006-2007 were destroyed, but she stated that they were
no longer in CPS’s system. Savage testified that, if CPS
found reason to believe that abuse occurred within a
family, then the records would be kept for ninety-nine
years. If the records were destroyed five years after
the youngest victim turned eighteen, that showed that
CPS had found no reason to believe the allegations.
She also testified that she could say there was an
intake in the 2006 case, but she could not say that
there was an investigation.4
That said, Savage also testified that, if there were
a sexual assault allegation involving someone who lived
in the home, there would be a CPS investigation. 5
If the perpetrator did not live in the victim’s home,
the CPS records would not be retained because that
would be a criminal case. She also testified that a CPS
investigation is separate from any law enforcement
4 The parties entered stipulations, including that C.M. made an
outcry in late 2006 about the offenses for which Bell was indicted
in 2016, that CPS investigated C.M.’s allegations in November
and December 2006 and January 2007, that CPS closed its
investigation on or about January 26, 2007, and that no charges
were filed against Bell on these allegations until November 2016.
5 C.M. testified that she lived with her mother when she was
fourteen to sixteen years old but that, for most of her childhood,
she lived with her grandmother.

App.6a
investigation and that CPS does not keep records for
law enforcement.
Detective Bean was also called to testify about his
investigation and his conversation with C.M. in which
she claimed that Bell had also done something to her
when she was younger. C.M. told Bean that someone
from CPS had talked with her in Dallas, but that she
had not told CPS anything. Bean also testified that, in
November 2006, an offense report was created.
After the hearing on Bell’s motion, the trial court
granted Bell’s motion to dismiss and entered findings
of fact and conclusions of law. As summarized, the
findings by the trial court included the following:
1.

In November 2006, C.M., who was sixteen
years old at the time, stated to law enforcement officers that she had issues of a sexual
nature with Bell. Those issues were said to
have happened during a time frame dating
back to 1999 to 2000.

2.

Because of C.M.’s allegations, a report was
made to CPS.

3.

Within one week of having made her outcry,
C.M. moved to Dallas.

4.

While in Dallas, a CPS investigator conducted
a recorded interview with C.M.

5.

According to C.M., the CPS investigator asked
her questions about her outcry, but C.M. did
not provide any information.

6.

On January 26, 2007, CPS issued a letter to
Bell stating that the case was closed.

App.7a
7.

CPS took no further action after January 26,
2007.

8.

Although an offense report was made, C.M.
was not interviewed by law enforcement.

9.

In August 2016, Bean interviewed C.M. regarding allegations made by her son. During that
interview, C.M. brought up the allegations
she had made in November 2006.

10. On November 10, 2016, Bell was indicted as
a result of C.M.’s statements relating to the
1999-2000 incidents.
11. During the course of this litigation, Bell served
a subpoena on CPS seeking records relevant
to this matter.
12. In response to that subpoena, CPS advised
that the records from 2006 had been retained
for five years in the CPS system and then
destroyed in conformity with the CPS retention schedule.
13. The CPS retention schedule provides that, if
the outcome of the investigation were “reason
to believe,” the records would have been
retained for ninety-nine years.
The trial court’s conclusions of law included the following:
5.

Records of a CPS investigation finding “reason
not to believe,” which included an electronically recorded interview of a victim within a
week of making an outcry, are undeniably
exculpatory and their value to the Defendant
is apparent.

App.8a
6.

Had criminal charges been considered by the
State in 2006, the Court would have expected
the State to comply with their duty and preserved the CPS investigation records. Because
CPS determined that there was “reason not
to believe” the victim, the State chose to not
pursue charges against the Defendant. Without an intent to prosecute, it would be unfair
to impose a duty to preserve on the State.

7.

This Court does not find, nor by this ruling
implies, that the State, by purposeful plan,
destroyed the records to harm the Defendant
in his defense of a criminal accusation.
[...]

13. . . . The Defendant does not argue nor does the
Court conclude that the CPS records might
have been exculpatory. Instead, because the
evidence was destroyed after 5 years because
of “reason not to believe,” then the evidence
was clearly exculpatory and therefore material.
[...]
15. . . . [T]he identity of the investigator is
unknown to the Defendant which prevents him
from calling that person as a witness in his
defense.
II.

The Trial Court Erred by Dismissing the Indictment

In its sole issue, the State contends the trial court
erred in dismissing the indictment against Bell. The
State asserts two grounds in support of its issue: (1)
dismissal was erroneous when there was no finding
of bad faith by the State as required by Arizona v.

App.9a

Youngblood,6 and (2) the trial court improperly applied
a totality-of-the-circumstances analysis. Bell argues
that a bad-faith finding was not required since the
evidence the State failed to preserve was material and
exculpatory, citing Illinois v. Fisher,7 Youngblood,8 and
Brady v. Maryland.9
A. A Finding of Bad Faith Was Required
1. Standard of Review
“An appellate court must uphold a trial court ruling
that is reasonably supported by the record and is
correct under any theory of law applicable to the case.”
State v. White, 306 S.W.3d 753, 757 n.10 (Tex. Crim.
App. 2010). We review a trial court’s dismissal of an
indictment under a bifurcated standard to determine
whether the trial court abused its discretion. State v.
Krizan-Wilson, 354 S.W.3d 808, 815-16 (Tex. Crim.
App. 2011). We “give almost total deference to a trial
court’s findings of facts that are supported by the
record, as well as mixed questions of law and fact that
rely upon the credibility of a witness.” Id. at 815
(citing Guzman v. State, 955 S.W.2d 85, 89 (Tex.
Crim. App. 1997); State v. Moff, 154 S.W.3d 599, 601
(Tex. Crim. App. 2004)). However, we apply “a de novo
standard of review to pure questions of law and mixed
questions that do not depend on credibility

6 Arizona v. Youngblood, 488 U.S. 51, 57-58 (1988).
7 Illinois v. Fisher, 540 U.S. 544, 547 (2004).
8 Youngblood, 481 U.S. at 57.
9 Brady v. Maryland, 373 U.S. 83, 87 (1963).

App.10a
determinations.” Id. (citing Guzman, 955 S.W.2d at
89).
2. Applicable Law
It is a violation of due process when the State fails
to disclose or suppresses material exculpatory evidence
to the defendant, irrespective of the prosecution’s good
or bad faith. Fisher, 540 U.S. at 547 (citing Brady,
373 U.S. 83, 87; United States v. Agurs, 427 U.S. 97
(1976)); McFarland v. State, 928 S.W.2d 482, 511
(Tex. Crim. App. 1996). Exculpatory evidence includes
impeachment evidence. United States v. Bagley, 473
U.S. 667, 676 (1985). In a typical case, to prevail on a
failure-to-disclose claim, the defendant must show
that the evidence was both material and favorable to
the defense so that there was a reasonable probability
that the outcome of the trial would have been different
had the evidence been disclosed. Pena v. State, 353
S.W.3d 797, 809 (Tex. Crim. App. 2011). Those are not
the circumstances presented in this case.
The State’s constitutional duty to preserve evidence
is “limited to evidence that might be expected to play
a significant role in the suspect’s defense.” California
v. Trombetta, 467 U.S. 479, 488 (1984); Little v. State,
991 S.W.2d 864, 866 (Tex. Crim. App. 1999). Under
this standard, in order to show a due process violation,
it must be shown that the evidence “both possess[ed]
an exculpatory value that was apparent before the
evidence was destroyed, and be of such a nature that
the defendant would be unable to obtain comparable
evidence by other reasonably available means.” Trombetta, 467 U.S. at 489. In addition, to constitute a
denial of due process, the defendant must show bad
faith on the part of the State in failing to preserve the

App.11a
potentially useful evidence, Youngblood, 488 U.S. at
58; see Trombetta, 467 U.S. at 488 (police acted in
good faith and in accord with their normal practice
in destroying breath samples); United States v. Valenzuela-Bernal, 458 U.S. 858, 872 (1982) (prompt deportation of witnesses was justified “upon the Executive’s
good-faith determination that they possess no evidence
favorable to the defendant in a criminal prosecution”).
The Texas Court of Criminal Appeals, and this
Court, have stated that, under United States Supreme
Court jurisprudence, “Brady addresses exculpatory evidence still in the government’s possession. Youngblood
and Trombetta address cases in which the government
no longer possesses the disputed evidence.” Little, 991
S.W.2d at 866; Welch v. State, No. 06-99-00106-CR,
2000 WL 661047, at *1 (Tex. App.—Texarkana May 23,
2000, pet. ref’d) (not designated for publication);10 see
also Moody v. State, 551 S.W.3d 167, 170 (Tex. App.—
Fort Worth 2017, no pet.).
3. Analysis
Here, the trial court made an unchallenged finding
that CPS destroyed its records in accordance with its
document retention schedule. It also made an unchallenged conclusion of law that the State did not destroy
those records with a purposeful plan to harm Bell in
his defense of the criminal allegations. That finding

10 “Although unpublished opinions have no precedential value,
we may take guidance from them ‘as an aid in developing reasoning that may be employed.’” Rhymes v. State, 536 S.W.3d 85, 99
n.9 (Tex. App.—Texarkana 2017, pet. ref’d) (quoting Carrillo v.
State, 98 S.W.3d 789, 794 (Tex. App.—Amarillo 2003, pet. ref’d)).

App.12a
of fact coupled with that conclusion of law11 may be
properly construed as an affirmative finding that the
State did not act in bad faith when the records were
destroyed. Since Bell failed to show bad faith on the part
of the State in the failure to preserve this potentially
useful evidence, no denial of due process was shown.
See Youngblood, 488 U.S. at 58.
Even so, Bell argues that, since the trial court
also made findings that (1) the evidence was material
and exculpatory12 and (2) the CPS investigator was
unknown to Bell, the rule in Brady should apply so
that a showing of bad faith was not required. But Bell
has cited no federal or Texas cases in which the Brady
rule was applied in a case in which it was alleged that
the State violated the defendant’s due-process rights
by failing to preserve evidence.13
Bell’s argument ignores the reasoning behind
requiring a showing of bad faith when the State fails
to preserve potentially useful evidence. In Trombetta
and Youngblood, the United States Supreme Court
sought to define the limits of a state’s constitutional duty
to preserve evidence. In Trombetta, the Court noted,

11 The record supports both the finding of fact and the conclusion
of law.
12 We note that no evidence in the record supports these findings.
The evidence showed that the contents of the CPS records and
the CPS interview were unknown.
13 In Little, the State failed to preserve evidence, but the defendant
alleged that the due process violation resulted from the State’s
failure to disclose that the evidence was lost. Because it was a
failure to disclose claim, Brady applied. Little, 991 S.W.2d at 866.

App.13a
The absence of doctrinal development in this
area reflects, in part, the difficulty of developing rules to deal with evidence destroyed
through prosecutorial neglect or oversight.
Whenever potentially exculpatory evidence is
permanently lost, courts face the treacherous
task of divining the import of materials whose
contents are unknown and, very often, disputed. Moreover, fashioning remedies for
the illegal destruction of evidence can pose
troubling choices. In nondisclosure cases, a
court can grant the defendant a new trial at
which the previously suppressed evidence may
be introduced. But when evidence has been
destroyed in violation of the Constitution, the
court must choose between barring further
prosecution or suppressing . . . the State’s most
probative evidence,

Trombetta , 467 U.S. at 486-87 (citation omitted). As
noted above, the Court held that a state’s constitutional
duty to preserve evidence “must be limited to evidence
that might be expected to play a significant role in the
suspect’s defense” and that the “evidence must both
possess an exculpatory value that was apparent before
the evidence was destroyed, and be of such a nature that
the defendant would be unable to obtain comparable
evidence by other reasonably available means,” Id. at
488-89 (emphasis added). The Court also considered
the police officer’s good faith and normal procedures in
destroying the evidence in its rejection of the defendant’s
due process claim. Id. at 488.
In Youngblood, the Court again considered the
limits of a state’s constitutional duty to preserve evidence. In concluding that the defendant must show bad

App.14a
faith on the part of the state in its failure to preserve
evidence, the Court reasoned:
We think that requiring a defendant to show
bad faith on the part of the police both limits
the extent of the police’s obligation to preserve
evidence to reasonable bounds and confines
it to that class of cases where the interests of
justice most clearly require it, i.e., those cases
in which the police themselves by their conduct
indicate that the evidence could form a basis
for exonerating the defendant.

Youngblood, 488 U.S. at 58.
Here, there was no finding by the trial court, and
no evidence in the record, that the prosecutor or the
police were aware of the contents of the CPS records
before they were destroyed or that any exculpatory
value of the records was apparent before they were
destroyed. Although the trial court concluded that the
State chose not to prosecute because CPS determined
that there was “reason not to believe,”14 that does not
equate to a finding that the prosecutor or the police
were aware of the contents of the CPS records or of the
CPS interview.
In addition, there is no finding, and no evidence
in the record, that the prosecutor or the police were
involved in any way in the decision to destroy the CPS
records. Nor is there any evidence that CPS acted as
an agent of, or at the direction of, the police or the
14 We note that Bell was able to solicit testimony from Savage
that CPS’s destruction of its records after five years indicated that
it had made a “reason not to believe” finding. Thus, Bell was able
to obtain comparable evidence of CPS’s finding by other means.
See Trombetta, 467 U.S. at 488-89.

App.15a
prosecutor when it interviewed C.M. See Harm v. State,
183 S.W.3d 403, 407 (Tex. Crim. App. 2006) (recognizing
that, while the duties of CPS include the investigation
of child-abuse claims, “that alone does not automatically transform CPS case workers into law-enforcement
officers or state agents”); Wilkerson v. State, 173 S.W.3d
521, 528-31 (Tex. Crim. App. 2005) (discussing the
different and parallel roles of CPS and law enforcement
and the factors for determining whether CPS was
acting as an agent of law enforcement). As a result,
any knowledge of CPS employee about the contents of
their records cannot be imputed to the State.15
We find, on this record, that this case falls within
the class of cases addressed by Youngblood and Trombetta. Since there was no finding, and no evidence in
the record, of bad faith by the State in the failure to
preserve the CPS records, we find that no violation of
Bell’s due-process rights has been shown. See Youngblood, 488 U.S. at 58.
B. The Trial Court’s Improperly Applied a Totalityof-the-Circumstances Analysis
In its conclusions of law, the trial court recognized
that its finding that the State did not act in bad faith
would generally require it to deny the motion to dismiss.
Even so, the trial court concluded that “combined with
other factors, a failure to preserve potentially exculpatory evidence, absent bad faith, can create the
cumulative effect of a denial of due process,” citing
15 We are not suggesting that, if the State had pursued its investigation and charged Bell in 2007, it would not have had a duty
to discover and preserve the contents of the CPS records if
they were favorable to Bell’s defense. But, here, the State did not
pursue an investigation or charge Bell in 2007.

App.16a

Gilbert v. State, 840 S.W.2d 138, 142 (Tex. App.—Houston [1st Dist.] 1992, no pet.). The court then concluded
that the loss of evidence combined with other factors,
including the material and exculpatory nature of the
evidence, the “he said/she said” nature of the case, and
the length of time since the alleged offense and its first
report, led to a deprivation of due process. It also
concluded that it was required to examine the totality
of these circumstances to determine whether the
evidence resulted in a trial so lacking in fairness as to
offend due process, citing Ex parte Brandley, 781 S.W.2d
886, 892 (Tex. Crim. App. 1989, orig. proceeding), and
Gilbert, 840 S.W.2d at 142. The State challenges all of
these conclusions of law. Yet, Bell did not address the
State’s challenges in his brief. We review a trial court’s
conclusions of law de novo. Krizan-Wilson, 354 S.W.3d
at 815.
In performing its totality-of-the-circumstances
analysis, the trial court relied on Brandley and Gilbert.
Neither of these cases stand for the proposition that a
trial court, in considering a pretrial motion to dismiss,
can ignore the requirements of Youngblood in determining whether the State violated a defendant’s right
to due process by failing to preserve evidence. In
Brandley, the applicant’s writ of habeas corpus alleged
that the State’s flawed investigative procedures created
false testimony in violation of his rights to due process
and a fair trial. Brandley, 781 S.W.2d at 887. The
State also suppressed evidence favorable to Brandley,
which he alleged supported a claim under Brady. As
a result, the Texas Court of Criminal Appeals was
required to consider the totality of the circumstances
of the trial in order to determine whether the suppressed
evidence was material. Id. at 893.

App.17a
In Gilbert, the appellant also alleged that the
State’s investigative process violated his right to due
process by failing to preserve evidence that might have
played a significant role in his defense. Gilbert, 840
S.W.2d at 142. Because the appellant relied on Brandley, the court of appeals looked at the totality of the
evidence at trial to determine that, even if the evidence
had been preserved, it would not have affected the
outcome of the trial. Id.
The appellate courts in Brandley and Gilbert
reviewed the complete evidentiary record from the trial
court, which enabled them to consider the totality of
the circumstances in the trial court in determining
whether their respective defendant’s due-process rights
had been violated. Here, no such record was before the
trial court. Thus, a totality-of-the-circumstances analysis would be unworkable on this record since the trial
court lacked a complete evidentiary record.
As noted earlier, the Texas Court of Criminal
Appeals has found that Youngblood and Trombetta
control cases in which “the government no longer
possesses the disputed evidence.” Little, 991 S.W.2d
at 866. We, therefore, find that the trial court erred in
its conclusions of law that considered other factors
and applied a totality-of-the-circumstances analysis.
Since there was no finding that the State acted in
bad faith when the CPS records were destroyed and
the trial court erred by applying a totality-of-thecircumstances analysis, we find that the trial court
erred in dismissing the indictment. We sustain the
State’s sole issue.

App.18a
III. Conclusion
For the reasons stated, we reverse the trial court’s
order dismissing the indictment and remand this case
to the trial court for further proceedings.
Scott E. Stevens
Justice
Date Submitted: December 5, 2019
Date Decided:
January 10, 2020

App.19a
CORRECTED FINDINGS OF FACT AND
CONCLUSIONS OF LAW PERTAINING TO THE
SIXTH DISTRICT COURT’S ORDER GRANTING
DEFENDANT’S AMENDED MOTION TO DISMISS
ON DUE PROCESS GROUNDS
(JUNE 6, 2019)
IN THE 6TH DISTRICT COURT OF
LAMAR COUNTY, TEXAS
________________________
THE STATE OF TEXAS
v.
BILLY JOHN BELL
________________________
Cause No. 27013
Comes now the Court in response to the State’s
request for Findings of Fact and Conclusions of Law
pertaining to the Court’s action in granting the Defendant’s Amended, Motion to Dismiss on Due Process
Grounds.
FINDINGS OF FACT
1. In November of 2006, Officers from the Paris
Police Department were called to the incident at a
residence on Cleveland Street in Paris, Texas.
2. Although unrelated to the purpose of the call that
prompted the arrival of law enforcement, the alleged
victim Chandice Moore, who was 16 years old at the
time, stated that she had “issues” with the Defendant

App.20a
Billy John Bell. These issues, later determined to be
sexual in nature, were said to have happened during
a time frame dating back to 1999 to 2000 when Ms.
Moore was approximately 10 years of age.
3. The Defendant Billy John Bell was Ms. Moore’s
step-grandfather. Mr. Bell, at the time, was living in
a residence next door to the residence occupied by Ms.
Moore and her grandmother.
4. Because of the allegations made by Ms. Moore,
a report was made to Child Protective Services. Understanding that Ms. Moore did not reside with the alleged
perpetrator, the call was assigned a Priority 2.
5. Before Ms. Moore was interviewed by Child
Protective Services, she moved to Dallas to live with a
relative. Her move occurred within one week of having
made her outcry.
6. While in Dallas, an investigator with Child
Protective Services came to interview Ms. Moore.
7. According to Ms. Moore, the interview was
electronically recorded by the Investigator.
8. According to Ms. Moore, the CPS investigator
asked her questions about her outcry, but she did not
provide any information.
9. According to Ms. Moore, the CPS investigator
told her that if she was not going to provide any information regarding her outcry the case would be closed.
10. On January 26, 2007, in accordance with the
statement made by the CPS Investigator, the Texas
Department of Family and Protective Services (CPS)
issued a letter to the Defendant stating that the case
was closed.

App.21a
11. CPS took no further action after January 26,
2007.
12. Although an offense report was made, Ms.
Moore was not interviewed by law enforcement.
13. In August of 2016, Ms. Moore contacted the
Paris Police Department to complain about the Defendant having acted inappropriately towards her own
child Braylon Moore. The case was referred to Detective
Chris Bean who then arranged to interview Ms. Moore.
14. When discussing the allegations regarding
Braylon, Ms. Moore brought up the now ten-year-old
allegation she had made in November 2006 relating to
herself and the alleged actions of the Defendant some
16 years ago.
15. Detective Bean did ask Ms. Moore whether
Child Protective Services had investigated the old allegations. Ms. Moore stated that she did talk to Child
Protective Services but did not tell them anything.
16. As a result of the statements made by Ms.
Moore relating to the 1999-2000 incidents regarding herself, an indictment was handed down by a Lamar County
Grand Jury on November 10, 2016. No indictment was
handed down regarding the alleged offenses by the
Defendant against Ms. Moore’s son Braylon.
17. This indictment was handed down over 16
years after the date of the alleged offense and over 10
years since Ms. Moore first made her outcry.
18. The indictment contained five counts—one for
continuous sexual abuse of a child (victim under 14),
one for aggravated sexual assault of a child and three
counts of indecency with a child. The relevant time

App.22a
period for these alleged offenses was August 1, 1999,
through October 1, 2000.
19. In the course of this litigation, Defendant’s
counsel served a subpoena on CPS seeking records
relevant to this matter. In response, CPS produced records from 2016 to 2017 (the “Braylon Moore Records”).
As for the 2006 records, after having been retained for
five years in the CPS system, it was learned that those
were destroyed in conformity with the CPS retention
schedule.
20. The CPS retention schedule provides that if
the outcome of the investigation is determined to be
“reason to believe,” the records would have been retained
for 99 years.
21. Patrice Savage, Regional Counsel for CPS,
testified that because the records were destroyed after
five years, the investigation presumptively concluded
there was “no reason to believe” the allegations.
CONCLUSIONS OF LAW
1. A person’s liberty cannot be deprived without
due process, U.S. Const. Amendments V and XIV. Texas
Const. Art. 1, Secs. 10 and 19.
2. The loss or destruction of exculpatory evidence
can deny a criminal defendant due process of law.
California v. Trombetta, 467 U.S. 479, 489, 81 L. Ed.
2d 413, 104 S. Ct. 2528 (1984); McDonald v. State, 863
S.W.2d 541, 543 (Tex. App.—Houston [1st Dist.] 1993,
no pet.).
3. To show that the loss of evidence abridged his
due process rights, a criminal defendant must demonstrate that: (1) evidence was lost or destroyed by the

App.23a
State after a request therefor; (2) the evidence was
favorable for the defendant; and (3) the evidence was
material. Nastu v. State, 589 S.W.2d 434, 441 (Tex.
Crim. App. 1979), cert. denied, 447 U.S. 911, 64 L. Ed.
2d 862, 100 S. Ct. 3000 (1980).
4. If the State comes into possession or is made
aware of evidence that is apparently exculpatory, it
has a duty to preserve that evidence. Id.
5. Records of a CPS investigation finding “reason
not to believe,” which included an electronically recorded
interview of a victim within a week of making an
outcry, are undeniably exculpatory and their value to
the Defendant is apparent.
6. Had criminal charges been considered by the
State in 2006, the Court would have expected the
State to comply with their duty and preserve the CPS
investigation records. Because CPS determined that
there was “reason not to believe” the victim, the State
chose to not pursue charges against the Defendant.
Without an intent to prosecute, it would be unfair to
impose a duty to preserve on the State.
7. This Court does not find, nor by this ruling
implies, that the State, by purposeful plan, destroyed
the records to harm the Defendant in his defense of a
criminal accusation.
8. If the analysis stopped here, the Defendant’s
motion would be denied due to his inability to show
bad faith. However, this analysis must continue understanding that the loss of evidence, even without bad
faith, can still result in an unfair trial and thus a
deprivation of due process.

App.24a
9. Going forward with this continued analysis,
the Court understands that combined with other factors,
a failure to preserve potentially exculpatory evidence,
absent bad faith, can create the cumulative effect of a
denial of due process. Gilbert v. State, 840 S.W.2d 138,
142 (Tex. App.—Houston [1st Dist.] 1992, no pet.).
10. To put it another way, regardless of how the
evidence was lost, its loss, combined with other factors,
can lead to a deprivation of due process. These other
factors would include the lost evidence’s materiality
and/or favorability to the Defendant.
11. The Court is required to examine the totality
of the circumstances to determine whether the loss of
the evidence resulted in a trial so lacking in fairness
as to offend due process. Ex parte Brandley, 781 S.W.2d
at 892; Gilbert, 840 S.W.2d at 142.
12. A showing that the evidence might have been
favorable does not meet the materiality standard.
McDonald v. State, 863 S.W.2d 541, 543 (Tex. App.—
Houston [1st Dist.] 1993, no pet.); Hernandez v. State,
867 S.W.2d 900, 908 (Tex. App.—Texarkana 1993, no
pet.). Allowing parties to speculate about the importance
of lost evidence would effectively prevent prosecutions,
especially when considering the nature of cases in
which this issue is usually found.
13. The Defendant does not argue nor does the
Court conclude that the CPS records might have been
exculpatory. Instead, because the evidence was destroyed after 5 years because of “reason not to believe,”
then the evidence was clearly exculpatory and therefore
material. Unlike a lost DNA specimen which one can

App.25a
only speculate as to its importance, the CPS investigation had been “tested” and the results of that test were
favorable to the Defendant to prove his innocence.
14. An additional consideration when examining
the totality of the circumstances is the nature of this
case. In short, a claim of sexual assault quite often
comes down to “he said/she said.” Included with these
records was an electronic recording of an interview
with the victim. This interview was procured within a
week of the outcry. More than 13 years have now elapsed
since that interview. The victim has testified that she
simply refused to cooperate and provide any information
but insists the assaults were committed. The Defendant
is without vital information as to what was actually
said—including the questions posed by the interviewer.
It is unfair and therefore a deprivation of due process
to allow the victim to explain away the finding
without the Defendant having access to the records.
15. Furthermore, this Court has considered the
fact that the identity of the investigator is unknown to
the Defendant which prevents him from calling that
person as a witness in his defense.
16. Finally, aside from the recorded interview,
any other statements taken or observations made that
were contained in those exculpatory records are lost.
17. Putting the Defendant on trial for offenses
alleged to have occurred over 19 years ago, reported 13
years ago, and now without evidence that exonerates
him is unfair and violates due process.
18. It is important to note that the Court did consider all other, less drastic means to go forward with
this trial including an instruction that would have
told the jury that a CPS investigation took place and

App.26a
that investigation found “reason not to believe” the
victim. Such an instruction would not have been sufficient considering the victim’s testimony that the
investigation was flawed due to her noncooperation.
Again, the loss of the records deprived the Defendant of
his ability to counter her claims of a flawed investigation
without having the benefit of what actually took place
in the investigation much less the identity of the person
who did the investigation.
SIGNED this 6th day of June, 2019.
/s/ Wesley Tidwell
Judge Presiding

App.27a
ORDER OF THE SIXTH DISTRICT COURT
OF LAMAR COUNTY, TEXAS GRANTING
DEFENDANT’S AMENDED MOTION TO DISMISS
ON DUE PROCESS GROUNDS
(JUNE 3, 2019)
IN THE 6TH DISTRICT COURT OF
LAMAR COUNTY, TEXAS
________________________
THE STATE OF TEXAS
v.
BILLY JOHN BELL
________________________
Cause No. 27013
Came on to be considered the Defendant’s Amended
Motion to Dismiss on Due Process Grounds. After having
considered the pleadings, the evidence and the arguments of counsel, the Court GRANTS the Defendant’s
Motion.
SIGNED this 3rd day of June, 2019.
/s/ Wesley Tidwell
Judge Presiding

App.28a
ORDER OF THE COURT OF APPEALS OF THE
SIXTH APPELLATE DISTRICT OF THE STATE OF
TEXAS DENYING MOTION FOR REHEARING
(FEBRUARY 19, 2020)
COURT OF APPEALS
SIXTH APPELLATE DISTRICT, STATE OF TEXAS
________________________
THE STATE OF TEXAS
v.
BILLY JOHN BELL
________________________
Appellate Case Number: 06-19-00139-CR
Trial Court Case Number: 27013
The Court entered its order this date in the referenced proceeding whereby Appellee’s Motion for
Rehearing was DENIED.
PLEASE TAKE DUE NOTICE HEREOF.
Respectfully submitted,
Debra K. Autrey
Clerk
By

/s/ Molly Pate
Deputy

App.29a
BELL MOTION FOR REHEARING
FILED IN COURT OF APPEALS OF THE
SIXTH APPELLATE DISTRICT OF TEXAS
(FEBRUARY 11, 2020)
IN THE COURT OF APPEALS
OF THE SIXTH JUDICIAL DISTRICT
________________________
THE STATE OF TEXAS,

Appellant,
v.
BILLY JOHN BELL,

Appellee.
________________________
No. 06-19-00139
On Appeal from the 6th Judicial District Court
Lamar County, Texas, Cause No. 27013
Hon. Judge R. Wesley “Wes” Tidwell
James R. Rodgers
State Bar No.17136300
Email: jrodgers@moorefirm.com
Jessica Nation Holtman
State Bar No. 24096951
Email: jholtman@moorefirm.com
100 North Main Street
Paris, Texas 75460
Tel: (903) 784-4393
Fax: (903) 785-0312

App.30a
Gary L. Waite
State Bar No. 20667500
Email: garywaite@sbcglobal.net
104 Lamar Ave.
Paris, Texas 75460
Tel: (903) 785-0096
Fax: (903) 785-0097
ATTORNEYS FOR APPELLEE,
BILLY JOHN BELL
[***]
TO THE HONORABLE JUSTICES OF THE COURT
OF APPEALS:
Comes now Billy John Bell, Appellee in the aboveentitled and numbered cause, and submits this motion
for rehearing pursuant to Rule 49.1 of the Texas Rules
of Appellate Procedure and requests that the Court
reconsider its opinion of January 10, 2020, and reinstate
the judgment of the trial court.
GROUND FOR REHEARING
The Court erred in reversing the judgment of the
trial court and remanding to the trial court for new
trial as a finding of bad faith is not necessary. Additionally, the Court erred in its analysis of the totality
of the circumstances relied upon by the trial court.
SUMMARY OF THE ARGUMENT
The Court’s analysis does not reflect the Supreme
Court’s differentiation of “material exculpatory evidence”
and “potentially exculpatory evidence” as found in its
line of cases discussing the State’s constitutional duty
to criminal defendants. The Supreme Court only
requires a showing of bad faith on the part of the State

App.31a
when the missing evidence fails to satisfy the two
prong “materiality” test set out in Trombetta. California
v. Trombetta, 467 U.S. 479, 489, 104 S. Ct. 2528, 81
L.Ed2d 413(1984) Texas courts have adopted the
Trombetta test. Salazar v. State, 298 S.W.3d 273, 27778 (Tex. App. Forth Worth 2009, pet. red.). Because
the trial court found the evidence in the case at bar
satisfied the Trombetta test, it is not necessary for the
defendant to establish that the State acted in bad faith
when destroying the complained of evidence. Thus, the
trial courts did not err in dismissing the indictment.
The trial court’s analysis regarding the “totality
of the circumstances” is superfluous. Once it is established that the destroyed evidence is material, no
further analysis is required.
ARGUMENT AND AUTHORITIES
I.

The Trial Court Did Not Err Dismissing the
Indictment Because Only Failing Trombetta’s
Two-Prong Materiality Test Triggers the Requirement of a Finding of Bad Faith Against the State.

A federal due process violation occurs whenever
the State fails to disclose or preserve material exculpatory evidence. Brady v. Maryland, 373 U.S. 83, 87,
83 S. Ct. 1194 (1963); Illinois v. Fisher, 540 U.S. 544,
124 S. Ct. 1200, 157 L.Ed.2d 1060 (2004). Evidence is
material when there is a reasonable probability that
it would affect the outcome of a case. United States v.
Bagley, 473 U.S. 667, 682, 105 S. Ct. 3375 (1985);
Chandler v. State, 278 S.W.3d 70 (Tex. App.—
Texarkana 2009). If the evidence is only potentially
exculpatory, then the defendant must show that the
State acted in bad faith when destroying it. Trombetta,

App.32a
467 U.S. at 489; Arizona v. Youngblood, 448 U.S. 51,
57-58, 109 S. Ct. 333, 102 L.Ed.2d 281 (1988). Texas
courts have adopted these standards. Salazar, 298
S.W.3d at 277-78; Gutierrez v. State, 419 S.W.3d 547,
552 (Tex. App.—San Antonio 2013); Gelinas v. State,
No. 08-09-00246-CR, 2015 WL 4760180 (Tex. App.—
E1 Paso Aug. 12, 2015, no. pet.) (not designated for
publication)).
The State has a duty to preserve “evidence that
might be expected to play a significant role in the
suspect’s defense,” known as constitutionally material
evidence. Trombetta, 467 U.S. at 488; see also, Nastu
v. State, 589 S.W.2d 434, 441 (Tex. Crim. App. 1979).
Constitutionally material evidence 1) “possess[es] an
exculpatory value that was apparent before [being]
destroyed” and 2) “[is] of such a nature that the defendant would be unable to obtain comparable evidence
by other reasonably available means.” Trombetta,
467-U.S. at 489. If the evidence does not meet this
standard, the Defendant must show bad faith on the
part of the State in failing to preserve the evidence in
order for a Due Process violation finding. Youngblood,
488 U.S. at 58. The Youngblood Court stated:
“ . . . Brady, makes the good or bad faith . . .
irrelevant when the State fails to disclose . . .
material exculpatory evidence . . . [A] different
result [is required for evidence] which no
more can be said than that it could have been
subjected to tests, the results of which might
have exonerated the defendant.”

Id.; see also, Fisher, 540 U.S. at 547 (holding bad faith

on the part of the State is required if the evidence is
found to be merely “potentially useful”).

App.33a
The Trombetta Court found the defendant’s breath
samples were not apparently exculpatory before being
destroyed and were not of such a nature that the
defendant was unable to obtain comparable evidence
by other reasonably available means. Trombetta, 467
U.S. at 489. Specifically, the breath samples had already
been tested and did not exonerate the defendant, and
the Court discussed different ways in which the
defendant could have presented comparable evidence
of the defendant’s innocence. Id. at 489-90. Because
the evidence was only “potentially exculpatory,” the
Court held that no Due Process violation occurred
when the State failed to preserve the samples. Id. at 491.
Notably, though discussed in its opinion, the Court’s
holding is void of any reference to the good or bad faith
of the State. Id.

Trombetta’s two prong test was satisfied when
the trial court found that the destroyed evidence was
material and exculpatory and was no longer available
to Bell. (CR, pp 263-64; COL No. 13, 15; Trombetta,
467 U.S. at 488). The “no reason to believe” finding
clearly indicates that the exculpatory nature of the CPS
file’s contents was apparent prior to their destruction.
Lost with the destruction of the file were the name of
the CPS investigator and the notes taken regarding
that investigation. This precludes the Defendant from
presenting comparable evidence of his innocence, since
he has no indication of where to find that evidence as
its source is lost forever.
Further, the defendants in Trombetta and Youngblood complained of destroyed evidence which they
wished to test in hopes of yielding some different
result. Trombetta, 467 U.S. at 488; Youngblood, 488
U.S. at 57-58. In the case at bar, an actual recording

App.34a
of an alleged victim caused CPS to close a case and the
State to not pursue charges against Bell. (COL No. 6).
Additionally, CPS investigators have been held to
be agents of the State, and thus were bound by the
State’s duties to the accused. State v. Aguilar, 535
S.W.3d 600, 606 (Tex.App.—San Antonio, 2017) (finding
a CPS investigator acted on behalf of the State and
was thus bound by Miranda when eliciting statements
from the accused) (citing Wilkerson v. State, 173
S.W.3d 521, 530 (Tex.Crim.App. 2005). The Wilkerson
Court discussed several inquiries for lower courts to
consider when determining whether CPS has acted on
behalf of police or the prosecution, but stated the
ultimate inquiry is whether “ . . . the interviewer [is]
acting as an ‘instrumentality’ or ‘conduit’ for the police
or prosecution.” Wilkerson, 173 S.W.3d at 530. Moreover, instead of answering each and every inquiry from
Wilkerson, numerous Texas courts have reviewed a
totality of the evidence to satisfy Wilkerson. Aguilar,
535 S.W.3d at 606-07.
The totality of this evidence, coupled with the stipulation that the State of Texas through CPS investigated
the initial allegation, satisfies Wilkerson’s ultimate
inquiry. (RR, Vol. I, pp 9-10, Ex. 1). In this case, the
police were initially made aware of the allegations, and
reported those to CPS. (RR, Vol I, p.38). However, the
unchallenged conclusion from the trial court was
“[b]ecause CPS determined that there was ‘reason not to
believe’ the victim, the State chose not to pursue charges
against the Defendant.” (COL No. 6). Accordingly, the
Wilkerson inquiry is met as the CPS interviewer was
clearly “acting as an ‘instrumentality’ or ‘conduit’ for
the [State],” which imputes CPS’s knowledge onto the
State. Wilkerson, 173 S.W.3d at 530.

App.35a
We know from testimony and the Court’s finding
that there was “no reason to believe” the allegations
made in late 2006/early 2007 about alleged happenings
some seven years prior. We know a CPS Investigator
recorded the alleged victim shortly after the outcry
and then almost immediately closed the file. More than
12 years have lapsed since that interview, and the
State now wants to be allowed to unearth the destroyed
file and put forth new testimony of the alleged victim
as to CPS’s finding. However, CPS is the only entity
that can conclusively testify as to its reasoning, and
without the lost interviewer’s name, the ultimate
destruction of the file is the only testimony available
from that entity. It is an understatement to say that
allowing the alleged victim an opportunity to rewrite
the contents of the destroyed file would serve an
injustice to the defendant.
Bell is left without vital information as to the
alleged victim’s words and her response to the questions
posed by the interviewer. Further, Bell has no way of
determining the identity of the interviewer, who
understandably would be a vital witness for the
defense. This Court seems to be of the opinion that
having a “no reason to believe” finding is as equally
persuasive as the alleged victim’s live testimony and
comparable to that of the CPS investigator; but the
finding is not “comparable evidence” of Bell’s innocence
since the alleged victim is being allowed to explain away
CPS’s finding without even a possibility of evidence to
the contrary. Allowing the complainant to explain away
the finding goes against the foundation of our Constitution. Prosecuting Bell under these circumstances
does not “comport with prevailing notions of fundamental fairness,” and would not afford Bell “a meaningful

App.36a
opportunity to present a completed defense.” Trombetta,
467 U.S. at 485.
The State’s own conduct shows the materiality
and exculpatory nature of the evidence. Therefore, a
finding of bad faith against the State is not necessary,
and the destruction of the evidence is a violation of
due process. Trombetta, 467 U.S. at 488; Youngblood,
488 U.S. at 57-58; see also, Salazar, 298 S.W.3d at
277-78.
II.

The Trial Court Conclusion That Conducting a
“Totality of the Circumstances” Analysis Was
Required Is Superfluous Since the Trombetta Two
Prong Test Was Satisfied.

As discussed at length above, the facts of this case
satisfy Trombetta’s two prong test. As such, bad faith
is irrelevant. Thus, the trial court’s additional conclusion of law surrounding a “totality of the circumstances”
review is superfluous.
One of the factors the trial court cumulatively
considered was “the material and exculpatory nature of
the evidence.” This shows the trial court had already
found the requirements of Trombetta satisfied. Albeit
unnecessary, the trial court was merely pointing to
other factors present in the case at bar that the Gilbert
court also considered in its analysis, which afforded
this Court the opportunity of completely understanding
all the facts of the case. The trial court’s relying on
Gilbert and Brantley was of no consequence to the
satisfying of Trombetta, thus the issue is moot and
should not be grounds for reversal.
If, however, this Court chooses to not give full
deference to the trial court’s finding that the destroyed

App.37a
evidence was materially exculpatory, perhaps the trial
court’s additional factors could otherwise be useful to
this Court:
“In my opinion, there may well be cases in
which the defendant is unable to prove that
the State acted in bad faith but in which the
loss or destruction of evidence is nonetheless
so critical to the defense as to make a criminal
trial fundamentally unfair.”

Trombetta, 467 U.S. at 61 (Stevens, J., concurring).
PRAYER
Bell prays this Court grant his Motion for
Rehearing and reverse its prior decision. Further, Bell
prays this Court affirm the trial court’s order granting
Bell’s motion to dismiss on due process grounds, and
for such other further relief to which Bell may be justly
and legally entitled.
Respectfully Submitted,
THE MOORE LAW FIRM, L.L.P.
100 N. Main Street
Paris, Texas 75460
Tel: (903) 784-4393
Fax: (903) 783-0042
Gary L. Waite, Attorney at Law
104 Lamar Ave.
Paris, Texas 75460
Tel: (903) 785-0096
Fax: (903) 785-0097

App.38a

By /s/ James R. Rodgers
Email: jrodgers@moorefirm.com
State Bar No.17136300
Jessica Nation Holtman
Email: jholtman@moorefirm.com
State Bar No. 24096951
Gary L. Waite
Email: garywaite@sbcglobal.net
State Bar No. 20667500
ATTORNEYS FOR APPELLEE,
Billy John Bell

App.39a
BELL AMENDED MOTION TO DISMISS ON DUE
PROCESS GROUNDS FILED IN THE SIXTH
DISTRICT COURT, LAMAR COUNTY, TEXAS
(FEBRUARY 21, 2019)
IN THE DISTRICT COURT 6th JUDICIAL
DISTRICT LAMAR COUNTY, TEXAS
________________________
THE STATE OF TEXAS
v.
BILLY JOHN BELL
________________________
No. 27013
TO THE HONORABLE JUDGE OF SAID COURT:
Now comes Billy John Bell, Defendant, in the
above styled and numbered cause and, pursuant to the
5th, 6th and 14th amendments to the United States
Constitution, Article I, Section 10 of the Texas Constitution and Articles 1.03, 1.04, and 1.05 of the Texas Code
of Criminal Procedure, moves the Court to dismiss the
indictment for the failure to afford Billy John Bell due
process and shows the following in support:
Factual Background
1. Billy Bell was arrested for sexual abuse of a
child, continuous; victim under 14, aggravated sexual
assault of a child, 3 counts, indecency with a child. All
of these indictments were on November 10, 2016.

App.40a
2. The alleged offenses are alleged to have occurred
between 1999-2000.
3. The complaining witness made an outc1y first
complaining of the alleged offenses in late 2006.
4. The allegations the basis of this indictment
were investigated by the State of Texas through Child
Protective Services. This investigation by CPS would
have included an interview of the child that is the
alleged victim in the instant case.
Procedural History
5. Defendant Bell has diligently pursued his
request for discovery in this case and has specifically
sought the Child Protective Services (CPS) records for
its investigation of the offenses made the basis of the
State’s indictment.
6. On December 8, 2017, on behalf of Defendant
Bell, a subpoena was served on the Texas Department
of Family and Protective Services (CPS) seeking the
records regarding the previously described investigation. The subpoena sought the following documents
and records:
1)

Any and all records, including but not limited
to statements, videos, photographs, reports,
and documentation describing findings and
conclusions for any Department of Family and
Protective Services/Child Protective Services
cases involving Billy John Bell, Chandice
Moore, or Stephanie Deion between 2006 or
2007.

2)

Any and all records including but not limited
to statements, videos, photographs, reports,

App.41a
and documentation describing findings and
conclusions for any Department of Family and
Protective Services/Child Protective Services
cases involving Billy John Bell, Chandice
Moore, Braylon Moore, or Sephanie Deion in
2016.
3)

Any and all records including but not limited
to statements, videos, photographs, reports,
and documentation describing findings and
conclusions for any Department of Family and
Protective Services/Child Protective Services
cases involving Billy John Bell, Chandice
Moore, or Stephanie Deion.

7. Thereafter, CPS furnished these records to the
Court for an in camera inspection. Subsequently, the
Court released the records to counsel for the State and
the Defendant. However, the records do not touch
upon or concern anything that occurred prior to 2016.
Specifically, there are absolutely no records relating
to the 2006 and 2007 investigation.
8. It is established that CPS did an investigation
in 2007 and the result was the cased was “closed” in
regard to the allegation against Bell. The case was
closed with no action criminal or otherwise filed against
Bell. Please see the letter from CPS to Billy Bell dated
January 26, 2007 and attached hereto as Exhibit A.
Argument
9. The CPS investigation that resulted in the closing of the case would be the most exculpatory evidence
possible.
10. CPS has now advised the Court that any
such records from 2006 and 2007 would have been

App.42a
destroyed sometime prior to this indictment. CPS
further advised that the requested documents were
retained for five years and then destroyed. CPS’s own
record retention schedule provides in cases with a
“reason to believe” the records are to be maintained
for a minimum of 20 years after the case is closed. Since
the subject records were destroyed after five years then
this further substantiates their exculpatory nature.
11. Defendant has also filed a Motion to Dismiss
Indictment for Failure to Afford Constitutional Right
to a Speedy Trial and that motion is incorporated
herein.
12. The exculpatory evidence is totally unavailable to the Defendant. Defendant has no way of determining the identity of CPS investigators involved and
has no other way of finding this information. It is
believed that the CPS investigators were from the Dallas
area and their identity and whereabouts is totally
unknown even assuming they would have recollection
given that all of their records were destroyed by CPS.
Due Process
13. It is a fundamental violation of due process
to allow a trial when the very evidence necessary to
exculpate the Defendant was procured by the State,
determined to be exculpatory by the State, and thus
subsequently destroyed by the State.
14. It would be fundamentally unconstitutional
to allow uncorroborated testimony in these circumstances when the very evidence to rebut this testimony
was in the custody of the State, reviewed by the State,
and destroyed by the State.

App.43a
Wherefore, Defendant prays that the Court enter
an order dismissing this indictment with prejudice.
Respectfully submitted,
MOORE LAW FIRM LLP
100 N. Main Street
Paris, Texas 75460-4222
Tel: (903) 784-4393
Fax: (903) 783-0042
By /s/ James R. Rodgers
State Bar No, 17136300
Email: jrodgers@moorefirm.com
Gary L. Waite
State Bar No. 20667500
Email: garywaite@sbeglobal.net

App.44a
APPENDIX A TO BELL AMENDED MOTION,
LETTER FROM TEXAS DEPARTMENT OF
FAMILY AND PROTECTIVE SERVICES
(JANUARY 26, 2007)
1460 NW 19th St
Paris, TX 75460
903-737-0318
________________________
Billy Bell
2054 Cleveland St
Paris, TX 75460
Dear Mr. Bell:
This letter is to inform you there has been child
Protective Services investigation concerning allegations
of sexual abuse to Chandice Moore and you, Mr. Billy
Bell, as the alleged perpetrator. This case is now
closed however; if Child Protective Services receives
any further reports regarding Chandice having access
to you, Mr. Billy Bell, can result in possible further
action to be taken by Child Protective Services.
If you have any questions please contact me at
the above address and/or telephone number. Thank
you for your cooperation.
Sincerely,
/s/ Jeri Garrison
Family Based Safety Services
Child Protective Services

App.45a
INDICTMENT
(NOVEMBER 10, 2016)
IN THE SIXTH DISTRICT COURT OF
LAMAR COUNTY, TEXAS
NAME: BILLY JOHN BELL (PID#9285)
________________________
Cause No.: 27013
________________________
Charge: Sex Abuse of Child
Continuous: Victim Under 14
Count One
1st Degree Felony
Texas Penal Code, Section 21.02 Count One
Aggravated Sexual Assault Child
Counts Two, Three, and Four
1st Degree Felony
Texas Penal Code, Section 22.021
Counts Two, Three, and Four
Indecency with a Child by Sexual Contact—
Count Five
2nd Degree Felony
Texas Penal Code, Section 21.11 Count Five
________________________
INDICTMENT
________________________

App.46a
COUNT ONE
The Grand Jurors of the County of Lamar, State
aforesaid, duly organized as such at the July Term,
A.D., 2016, of the District Court of the Sixth Judicial
District for said County, upon their oaths in said Court
present that BILLY JOHN BELL in Lamar County,
Texas, anterior to the presentment of this Indictment,
did then and there, during a period that was 30 or
more days in duration, to-wit: from on or about August
1, 1999 through on or about October 1, 2000, when the
Defendant was 17 years of age or older, commit two or
more acts of sexual abuse against a child younger than
14 years of age, namely:
aggravated sexual assault of a child, namely: by
causing the female sexual organ of Chandice Moore to
contact the mouth of the Defendant,
AND/OR
aggravated sexual assault of a child, namely: by
causing the female sexual organ of Chandice Moore to
contact the male sexual organ of the Defendant,
AND/OR
aggravated sexual assault of a child, namely: by
causing the female sexual organ of Chandice Moore to
contact the mouth of the Defendant,
COUNT TWO
And it is further presented in and to said Court
that the said Defendant in Lamar County, Texas, on
or about August 1, 1999, did then and there intentionally and knowingly cause the female sexual organ
of Chandice Moore, a child who was then and there

App.47a
younger than fourteen (14) years of age, to contact the
mouth of the Defendant.
COUNT THREE
And it is further presented in and to said Court
that the said Defendant in Lamar County, Texas, on
or about February 1, 2000, did then and there intentionally and knowingly cause the female sexual organ
of Chandice Moore, a child who was then and there
younger than fourteen (14) years of age, to contact the
male sexual organ of the Defendant.
COUNT FOUR
And it is further presented in and to said Court
that the said Defendant in Lamar County, Texas, on
or about October 1, 2000, did then and there intentionally and knowingly cause the female sexual organ
of Chandice Moore, a child who was then and there
younger than fourteen (14) years of age, to contact the
mouth of the Defendant.
COUNT FIVE
And it is further presented in and to said Court
that the said Defendant in Lamar County, Texas, on
or about August 1, 1999, did then and there, with the
intent to arouse or gratify the sexual desire of the
Defendant, engage in sexual contact with Chandice
Moore, a child who was then and there younger than
seventeen (17) years of age, by touching the breast or
breasts of Chandice Moore.
Against the peace and dignity of the State.
/s/ Signature not Legible
Foreman of the Grand Jury
Names of Witnesses: Sharon Regnerson

